U.S. Department of                                   The Inspector General   Office of Inspector General
Transportation                                                               Washington, DC 20590
Office of the Secretary
of Transportation



January 13, 2011


The Honorable Charles E. Grassley
Ranking Member, Committee on Finance
United States Senate
Washington, DC 20510

The Honorable Tom Coburn
Ranking Member, Permanent Subcommittee
 on Investigations
Committee on Homeland Security and Governmental Affairs
United States Senate
Washington, DC 20510

Dear Senators Grassley and Coburn:

Thank you for your letter of April 8, 2010, regarding your continuing efforts in
support of our mission to promote efficiency and effectiveness and prevent fraud,
waste, and abuse in Department of Transportation (DOT) programs. 1 As you
requested, we are providing you with biannual reports on all our closed audits,
investigations, and evaluations that were not publicly disclosed.

During the period of May 1 through September 30, 2010, we issued one non-public
audit product to DOT’s Deputy Secretary, “Management Advisory: Weaknesses
Identified in the Office of the Secretary of Transportation’s Acquisition Function”
(June 24, 2010). Management advisories issued during our ongoing audits serve as an
early warning to the DOT agency so officials can take corrective actions.

Our closed, non-public investigations for the same period are presented in the
enclosure to this letter. We can provide additional information about any of the
closed investigations listed upon request.



1
    We responded to this request on June 18, 2010.


CC-2011-010
                                                                              2


Thank you again for your inquiry and interest. If you have any questions or need
further information, please contact me at (202) 366-1959 or Nathan Richmond,
Director and Counsel for Congressional and External Affairs, at (202) 493-0422.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure




CC-2011-010
                                                                                                          Enclosure

                            DOT/OIG Closed Investigations, Non-Public

During the period May 1 through September 30, 2010, we closed 2 13 investigations
that resulted in administrative action and 49 investigations that were unsubstantiated
and/or declined for prosecution and for which no other action was taken (i.e.,
administrative or civil). 3 Please see the two tables below for further details.

                                               ADMINISTRATIVE
     Aviation              Certificate Fraud, Airmen                                                            2
     Employee              Bribery/Gratuities (Employee Conduct)                                                1
     Employee              Ethics Violation (Misconduct)                                                        3
     Grant                 Anti-Trust, Bid Rigging/Collusion                                                    1
     Grant                 False Statements/Certifications/Claims                                               1
     Grant                 Public Corruption/Extortion                                                          3
     Hazmat                Pipelines                                                                            1
     Hazmat                PHMSA Cylinders and Packaging                                                        1
                           TOTAL                                                                               13

                                             UNSUBSTANTIATED
     Aviation               Accident Related                                                                    1
     Aviation               Certificate Fraud, Airmen                                                           1
     Aviation               Certificate Fraud, Mechanic                                                         1
     Aviation               Certificate Fraud, Medical                                                          2
     Aviation               S.U.P. Parts-Manufacturing                                                          1
     Aviation               S.U.P. Parts-Maintenance                                                            1
     Employee               Conflict of Interest (Public Corruption, Current Employee)                          1
     Employee               Ethics Violation (Misconduct)                                                       2
     Employee               Travel Voucher Fraud                                                                2
     Grant                  Anti-Trust, Bid Rigging/Collusion                                                   3
     Grant                  DBE/MBE/WBE Fraud                                                                   3
     Grant                  False Statements/Certifications/Claims                                             14
     Grant                  Public Corruption/Extortion                                                         3
     Hazmat                 Carriage by Air                                                                     1
     Motor Carrier          Broker, Freight Forwarder, Carrier Registration                                     1
     Motor Carrier          CDL                                                                                 2
     Motor Carrier          Driver Qualification                                                                1
     Intrusion              Unauthorized Computer Access                                                        1
     Procurement            False Statements/Certifications/Claims                                              4
     Procurement            Public Corruption/Extortion                                                         2
     Other                  Other (C.A.R.S.)                                                                    1
     Other                  Theft of DOT Funds or Property                                                      1
                            TOTAL                                                                              49


2
    This does not include investigations that were reopened.
3
    In addition, during the period requested, we closed 18 criminal, civil, and Office of Special Counsel Whistleblower
    investigations, which as a general rule are publicly disclosed.
